No. 19-373
In The

^npremt (^Lsynri of

'^nxith

James Walker
Petitioner,
V.

United States of America,
Respondent.
CERTIFICATE OF SERVICE
I, Ishan K. Bhabha, hereby certify that I am a member of the Bar of this Court,
and that I have this 13th day of January 2020, caused three copies of the Brief for
National Association of Criminal Defense Lawyers as Amicus Curiae in Support of
Petitioner to be served via overnight mail and an electronic version of the document to
be transmitted via the Court’s electronic filing system to:
Kannon K. Shanmugam
Paul, Weiss, Rifkind, Wharton &
Garrison LLP
2001 K Street, N.W.
Washington, DC 20006
(202) 223-7300
kshanmugam@paulweiss.com

Noel J. Francisco
Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@U SD OJ.gov

Counsel for James Walker

Counsel for United States of America

2

shan K. Bhabha

